OIG Audit Report GR-60-06-007

Office of Justice Programs Southwest Border Prosecution Initiative Funding Administered by the New Mexico Department of Public Safety, Santa Fe, New Mexico

Audit Report GR-60-06-007


May 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), to the New Mexico Department of Public Safety (DPS).
Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or a multi jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF).  Many U.S. Attorneys, including the U.S. Attorney for the District of New Mexico, have developed prosecution guidelines which govern the most common violations of federal law.  These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court.  As a result, many federally initiated cases occurring near the southwest border are referred to the state, or county for prosecution.  
The SWBPI was established in FY 2002, when Congress began appropriating funds to reimburse state, county, parish, tribal and municipal governments for costs associated with the prosecution of criminal cases declined-referred by local United States Attorneys offices.  Reimbursements received from SWBPI funding may be used for any lawful purpose that is in the best interest of the jurisdiction, including support of government operations, purchase of equipment, or to pay staff salaries.
The DPS was appointed as the administrative agency for the State of New Mexico and is responsible for requesting SWBPI reimbursements and disseminating funds to the state judicial districts.  As of December 21, 2005, the DPS had received SWBPI funding totaling $15,116,049. 
The objective of our audit was to determine if reimbursements of SWBPI funding received by the DPS were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI. 
We found that:   (1) the DPS claimed and was reimbursed for cases that were ineligible under the SWBPI guidelines, (2) reimbursement amounts were calculated incorrectly based on the case closure dates rather than the resolution dates, and (3) the number of cases claimed for reimbursement for each case disposition category did not always reconcile to the supporting documentation.  In addition, the DPS oversight of SWBPI reimbursement requests on behalf of the judicial districts was not adequate.  Based on the deficiencies listed below, we identified questioned costs totaling $1,098,036.1   Specifically, we found:

The DPS received reimbursements totaling $769,333 for cases that were not eligible under the SWBPI guidelines.
Case disposition categories were calculated incorrectly because the judicial districts were using the case closure dates rather than the resolution dates, resulting in excess reimbursements totaling $286,433.
The number of cases claimed for reimbursement for each case disposition category did not always reconcile to the supporting documentation resulting in unsupported reimbursements totaling $42,270.
The DPS oversight of SWBPI reimbursement requests on behalf of the state judicial districts was not adequate to ensure that cases were eligible and that reimbursement amounts were calculated correctly.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnote

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.